WAIVER

Supreme Court of the United States

No. 20-1158
The North American Mission Board of the _ v. Will McRaney
Southern Baptist Convention, Inc.
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
@ lam filing this waiver on behalf of all respondents.

O Ionly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

 

 

Please check the appropriate box:

s& Lama member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

OC Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Office, 1 First Street, NE, Washington, D.C. 20543).

Signature, w& ss

Date: WWAred, x sie ox
(Type or print) Name aw \Goon WW Barton [1
ir. Ss.

O Mrs. O Miss

rim __@Qacton law Firm, PLL

Address ee ae
City & iat QSCGS,0 {AS Zip. 24 5 of

t
Phone AAS-"1A-AO10 Email Noted @ sicmeities law.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

 

cer
